No. 18A1117
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, APPLICANT
V.

EVELYN SINENENG-SMITH
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT, via e-mail and first-class mail, postage
prepaid, this 31st day of May 2019.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 31, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

UNITED STATES OF AMERICA
EVELYN SINENENG-SMITH
Daniel F. Cook
Attorney At Law
P.O. Box 26
Bodega Bay, CA 94923
415-730-3075

dcooklaw@corncast.net

